CERTIFICATE OF SERVICE
No. 20-1155
IN THE

JONAS DAVID NELSON,
Petitioner,
v.
STATE OF MINNESOTA,
Respondent.
I hereby certify that, in accordance with Supreme Court Rule 29 and this
Court’s Order of April 15, 2020, all parties required to be served have been served
with copies of the foregoing Brief of Amicus Curiae The Rutherford Institute in
Support of Petitioner, via e-mail, this 24th day of March, 2021. All parties had
previously consented to electronic service consistent with this Court’s Order.
Andrew T. Tutt
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
andrew.tutt@arnoldporter.com

Counsel for Petitioner
Edwin W. Stockmeyer
Assistant Attorney General
Office of the Minnesota Attorney General
445 Minnesota Street, Suite 1800
Saint Paul, MN 55101
(651) 757-1247
ed.stockmeyer@ag.state.mn.us

Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 24, 2021.

/s/ Lyle D. Kossis
Lyle D. Kossis

Counsel of Record

MCGUIREWOODS LLP
Gateway Plaza
800 East Canal Street
Richmond, VA 23219
(804) 775-4703
lkossis@mcguirewoods.com

